Peace Corps
Office of Inspector General




Semiannual Report to Congress
October 1, 2007 - March 31, 2008
                 PEACE CORPS

       Office of Inspector General

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
help the people of the countries in which they serve in meeting
their needs for trained manpower, and in helping promote a better
understanding of the American people on the part of the people
served, and a better understanding of other people on the part of the
American people.




        Semiannual Report to Congress
         October 1, 2007 – March 31, 2008
                              TABLE OF CONTENTS


t	Highlights from this Report	                                            1
 	Message from the Inspector General	                                     1

	 Management and Administration 	                                        3
	 Agency Context	                                                         3
	 OIG Staffing                                                            3

	 Advice and Assistance Provided to the Agency and Others                 6
  Proposed Transfer of Violent Crimes Oversight                          6	
  Investigation of Missing Funds at Peace Corps/Guatemala            	   7
   Online Collaboration Tools                                            8
	 Accountability of Medical Supplies                                     8


	 Audits and Program Evaluations 	                                       10
	 Overview	                                                              10
  Summary of Audits and Evaluations 	                                    11
  President’s Council on Integrity and Efficiency: Peer Review           11
  Peace Corps Fiscal Year 2007 Financial Statement Audit                 11
	 Review of the Agency’s Federal Information Security Program	           13
	 Peace Corps/Eastern Caribbean: Audit	                                  14
	 Peace Corps/Fiji: Audit	                                               15
	 Peace Corps/Georgia: Audit	                                            15
	 Peace Corps/Kazakhstan: Audit	                                         16
	 Peace Corps/Peru: Audit	                                               17
	 Peace Corps/Armenia: Follow-up Audit	                                  18
	 Peace Corps/China: Follow-up Audit 	                                   18
	 Medical Clearance System: Program Evaluation	                          19
	
  Investigations                      	                                  21
	 Overview	                                                              21
  Investigation of the Death of a Volunteer                              22
  Investigation of the Death of a Volunteer                              22
  Missing Volunteer Investigation                                        23
  Investigations of an Assault and Alleged Volunteer Misconduct          23
  Investigations of Federal Employees’ Compensation Act Recipients       23
Violent Crimes Against Volunteers                                             24
Closed Cases of Violent Crime Against Volunteers                  	           25
Active Investigations of Violent Crime Cases 	                                27
Title 18 Criminal and Other Investigations Conducted	                         29

TABLE 1: List of Reports: Audits, Evaluations, and Inspections	               31
TABLE 2: Reports Issued with Questioned Costs or Funds Put to Better Use 	    32
TABLE 3: Status of Reports Issued by OIG with Costs Questioned 	              33
TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use 	       34
TABLE 5: Reports with Recommendations on which Corrective 	
         Action has not been completed 	                                      35
TABLE 6: Summary of Investigative Activity 	                                  36
TABLE 7: Summary of Hotline and Other Complaints	                             37
TABLE 8: References to Reporting Requirements of the Inspector General Act	   38
the Inspector   General Act 	                                                 36
Highlights from this Report

                     Message from the Inspector General

 I am pleased to present the Peace Corps Office of Inspector General’s (OIG)
 Semiannual Report to Congress for the period of October 1, 2007 through
 March 31, 2008. This report is required by the Inspector General Act of 1978, as
 amended, and covers the work performed by the OIG during the period indicated.
 OIG activities during this reporting period demonstrate our continued commitment
 to promote and increase the effectiveness and efficiencies of Peace Corps programs
 and operations, as well as maintain standards established by the President’s Council
 on Integrity and Efficiency (PCIE), the Executive Council on Integrity and
 Efficiency (ECIE), and other federal entities.

 This reporting period has introduced many challenges to all aspects of the OIG. In
 December, H. David Kotz, who served as the Peace Corps Inspector General since
 February 2006, accepted a position with another federal agency. The OIG also lost
 five other employees to transfers and retirements and has had difficulty attracting
 new staff with the requisite skills to fill key positions throughout the organization.

 Despite these challenges, the OIG has had numerous accomplishments during this
 reporting period. The Audit Unit, led by Assistant Inspector General for Audits
 Gerald Montoya, received a clean opinion on an external quality control review.
 This review encompasses the OIG’s organizational structure, and policies and
 procedures that ensure conformity with generally accepted government auditing
 standards promulgated by the Comptroller General of the United States.

 Furthermore, the Audit Unit completed five post audits: the Eastern Caribbean, Fiji,
 Georgia, Kazakhstan, and Peru; and performed follow-up audits in Armenia and
 China. The Audit Unit also issued two preliminary post audits (Azerbaijan and the
 Philippines), as well as ensured Agency compliance with the Federal Information
 Security Management Act and Financial Statements, which are a required annually.

 Recent evaluations have focused on Agency-wide issues, such as the medical
 clearance process and safety and security of the Volunteer. The Evaluation Unit, led
 by Assistant Inspector General for Evaluations Shelley Elbert, issued the final report
 on the medical clearance process and a preliminary report on the evaluation of the
 Agency’s overall safety and security procedures during this reporting period.  While
 these and other overarching functions of the Peace Corps deserve inspection, staff
 turnover limited our ability to perform evaluations at overseas posts.

 In the next reporting period, the Evaluation Unit will resume its traditional focus
 of evaluating management and program operations at overseas posts. In an effort

  Peace Corps Office of Inspector General                                      
to improve the effectiveness of our own processes, we have updated our objectives
and administrative processes for conducting post evaluations while maintaining the
standards established by the President’s Council on Integrity and Efficiency. 

Additionally, as the Agency is currently developing the strategic plan for 2009-2014,
we intend to gauge accountability in support of the Government Performance and
Results Act.  We plan to pilot our updated objectives and evaluation processes in the
upcoming reporting period.

The Investigations Unit had to respond and investigate two separate Volunteer
death incidents. We coordinated our response to these tragic matters with other
Agency offices, as well as Regional Security Officers, the Armed Forces Institute of
Pathology, and local police authorities. We also achieved success with our authority
to coordinate the Agency’s response to violent crimes against Volunteers through
numerous initiatives including, providing victim advocacy assistance to Volunteers,
transport of DNA evidence to the FBI, and preparing Volunteers for trial.

The Investigations Unit has also conducted Title 18 and other administrative and
ethics investigations. In addition to our ongoing efforts to provide oversight of our
Federal Employees’ Compensation Act (FECA) claimants, we have also requested
information to monitor transit subsidy benefits provided to Agency employees. In
addition, we also investigated an audit finding involving missing funds in a Central
American country and allegations of an assault in a West African Country.

In an effort to be more transparent and provide clarity about our operations, the
Investigations Unit developed a brochure on the OIG’s investigative authority and
processes. This brochure will be provided to Volunteers who are witnesses or subjects
of investigations.

To better coordinate with the Inspector General community, I attended Executive
Council on Integrity and Efficiency meetings and provided input on matters that are
of particular concern and/or unique to our OIG operations.

During my short tenure as the Acting Inspector General, I have reached out to
various members of Peace Corps’ senior staff and received valuable feedback about
the three central services performed by this office. In addition to taking the time to
revamp and update our evaluation processes and develop an instrument to explain
the investigative process, the OIG will continue to strive for professionalism and
transparency in all aspects of our dealings with the Agency, as well as the federal,
private, and international community.


					                                      Geoffrey A. Johnson
					                                      Acting Inspector General




                 Semiannual Report to Congress    October 1, 2007 - March 31, 2008
Management
Management and
           and Administration
               Administration

                                           Agency Context

  At the end of FY 2007, 8,079 Peace Corps Volunteers and Trainees were serving in
  74 countries at 68 posts. This total includes: 184 Volunteers and Trainees funded by
  the President’s Emergency Plan for AIDS Relief (PEPFAR) working on HIV/AIDS
  projects in nine countries and 33 Peace Corps Response Volunteers serving in short-
  term assignments in 10 countries. Eleven Peace Corps Response Volunteers were
  funded by PEPFAR.

  The Volunteers and their programs are supported by 895 American direct hire
  staff: 194 overseas; 123 in the regional recruiting offices; and the remaining 578 in
  headquarters. Approximately 2,000 locally hired personnel complete post staffing.
  The Peace Corps also has corporate contracts domestically and overseas, principally
  for guard services and training, and expert consultants hires, largely for training and
  financial management.

                                             OIG Staffing
  During the reporting period, there were several staff changes and departures in the
  Office of Inspector General.

  On December 22, 2007, Inspector General H. David Kotz left the Peace Corps
  to join the Securities and Exchange Commission as Inspector General. Assistant
  Inspector General for Investigation Geoffrey A. Johnson is serving as Acting Inspector
  General. Senior Evaluator Shelley Elbert was promoted to Assistant Inspector
  General for Evaluations on November 11, 2007. In addition, Senior Special Agent
  Julie K. deMello has been Acting Assistant Inspector General for Investigations since
  December 22, 2007.

  The Investigation, Audit, and Evaluation Units have all been adversely affected by staff
  departures. Special Agent Henry Mulzac left the OIG on November 30, 2007 after
  five years of service. On December 31, 2007, Senior Auditor Letty J. Collins retired
  after more than eight years of service. Senior Evaluators Lynn Khadiagala and Crist
  Chensvold left the Peace Corps in February 2008 for positions at the Department of
  Interior.

  The OIG moved quickly to fill these vacant positions with the expectation of having
  all vacancies filled as soon as possible. Four new staff members joined the OIG
  during this reporting period.

  Susan Gasper joined the OIG in October 2007 as an Evaluator. From 2005-2007,
  she was a manager at a local management and IT consulting firm where she focused

        Peace Corps Office of Inspector General                                      
on analyzing, evaluating, and re-engineering business processes for government
and private sector clients. Susan has also worked in the nonprofit sector as a
Program Manager for the Russia and Eurasia Program at the Center for Strategic
and International Studies and as a Philanthropic Fellow at Grantmakers of Western
Pennsylvania. Susan was a Peace Corps Fellow at Carnegie Mellon University’s Heinz
School and graduated with a Master’s in Public Policy and Management. She served
in the last group of Peace Corps Volunteers in the Russia Far East and closed service
in 2002.

Reuben Marshall joined the OIG in March 2008 as an Evaluator. Prior to the
OIG, Reuben led the Africa Placement Unit in the Peace Corps Office of Volunteer
Recruitment and Selection. Reuben served as a Volunteer in Cote d’ Ivoire from
1996 - 1998. After completing Peace Corps Volunteer service, Reuben worked
as a newspaper reporter and editor in central Virginia. Reuben then joined the
International Rescue Committee’s Refugee Resettlement Office in Charlottesville,
Virginia, where he developed and coordinated interpreter and immigration services.
Reuben earned his Bachelor’s degree in Philosophy at St. John’s College in Annapolis,
Maryland.

April Thompson joined the OIG in March 2008 as an Evaluator. April comes from
the Government Accountability Office where for four years she prepared evaluative
reports and testimonies related to the U.S. Coast Guard and other federal programs.
Prior to this, April was a research analyst at California State University, Monterey
Bay, where she authored the first campus strategic plan progress report and helped
improve campus safety and academic advisement through survey and analytic
research. She recently volunteered as a program evaluation consultant for the United
States Holocaust Memorial Museum. April earned a Master of Arts in International
Policy Studies and a Certificate in Public Administration from the Monterey Institute
of International Studies.

Kevin Doherty joined the OIG in March 2008 as a Special Agent. He graduated
from Bridgewater State College with a Bachelor’s degree in psychology and is
pursuing his Master’s degree in Criminal Justice online from the University of
Wisconsin. He is a former Marine and criminal investigator with the Department
of Energy (DOE). He served as lead investigator for a number of criminal and
administrative cases with DOE and also served as lead protective agent for Secretary’s
of Energy Spencer Abraham and Dr. Samuel Bodman. Kevin has traveled extensively
with the government, including China, Cuba, Haiti, Brazil, the former Soviet Union,
and the Middle East. He worked for the State Department and provided personal
security to U.S. Ambassadors Khalilizad and Crocker in Iraq.

The OIG also commandeered the services of Thomas O’Connor in November 2007,
as an expert consultant with the OIG Evaluation Unit. Tom brings over 30 years of
experience conducting performance audits for the Government Accountability Office
and the U.S. Agency for International Development. He has provided expert advice

                 Semiannual Report to Congress   October 1, 2007 - March 31, 2008
to the Evaluation Unit enhancing their evaluation procedures and ensured that the
unit is in compliance with federal regulations for OIG program evaluations.

At the end of the reporting period, the positions of Inspector General, Deputy
Inspector General, and Inspector General Counsel are vacant. Additionally, the OIG
has had challenges acquiring staff with the knowledge, skills, and abilities necessary to
conduct audits and investigations.




     Peace Corps Office of Inspector General                                       
Advice and
Advice and Assistance
           Assistance Provided
                      Provided
  to the
  to the Agency
         Agency and
                 and Others
                     Others
 During this reporting period, we provided advice to management on a number
 of serious issues that were brought to our attention. This advice was conveyed in
 written form and through briefings and meetings with the Director of the Agency
 and other senior-level Peace Corps officials.

             Proposed Transfer of the Violent Crimes Oversight

 In February 2008, the Peace Corps Director met with the Acting Inspector General
 to discuss a proposed transfer of violent crimes oversight from the Office of Inspector
 General to the Office of Safety and Security. On March 4, 2008, the Associate
 Director for Safety and Security met with the Acting Inspector General to discuss the
 terms and timeframes for the potential transfer.

 The Agency provided a blue-print or concept paper to the Acting Inspector General
 outlining how it proposed to manage violent crimes against Volunteers. The
 proposed measures included: (1) increased reliance upon host country national
 police to conduct crimes and investigations of Volunteers; (2) little or no need for
 experienced and trained criminal investigators to accomplish oversight of violent
 crimes, rather, Peace Corps Safety and Security Officers (PCSSOs) would coordinate
 this function while maintaining their current work responsibilities; and (3) the
 rescission and revocation of the Violent Crimes Protocol, and memorandums and
 sections of the Peace Corps Manual pertaining to violent crimes. The Agency’s
 proposal did not address the role of the OIG to investigate any assaults or suspicious
 deaths of Volunteers.

 The OIG provided written and verbal concerns to the Agency about the proposed
 transfer, which was initially to occur on June 1, 2008. In light of the OIG’s ongoing
 gains in victim advocacy and achieving justice when Volunteers become victims
 of violent crimes, we questioned the feasibility of the Office of Safety and Security
 providing oversight of violent crimes against Volunteers, in particular, the Agency’s
 reliance on PCSSOs. We advised the Agency that our major concerns over the
 proposed transfer of function were as follows:

 1) 	 Peace Corps Safety and Security Officers (PCSSOs) are not trained to conduct
      criminal investigations. We questioned how PCSSOs will be able to derive
      investigative authority to forward evidence to the FBI for analysis or present a
      case to the Justice System. They are not recognized law enforcement officials or
      criminal investigators.

 2) 	 PCSSOs may not be able to perform their current work responsibilities in
      addition to violent crimes, which can occur at anytime, during a 24 hour basis,

                    Semiannual Report to Congress   October 1, 2007 - March 31, 2008
    7 days a week. This mission and function currently consumes 70%-90% of the time of the
    OIG’s four-person Investigations Unit.

3) 	 We also questioned how responding to violent crimes will be prioritized with existing
     PCSSO work. Protecting and processing crime scenes, collecting and admitting DNA
     evidence for analysis, interviewing victims and witnesses of violent crimes, coordinating with
     post, headquarters, local authorities, the RSO, and other investigative activities are time-
     consuming and must be conducted within prescribed time frames according to both U.S.
     legal standards and in the local legal systems.

4)	 Additionally, we are concerned about notifying PCSSOs of a violent crime in a timely
    manner. There are currently no provisions for them to receive Blackberries or other devices
    whereby 24/7 notifications can be made so an immediate response can be rendered.

Furthermore, we advised the Agency that its proposed reliance on host country law
enforcement agencies where Peace Corps programs operate is problematic. These agencies
are generally under-staffed, under-trained, under-paid, and are ill-equipped to provide an
adequate and effective response to violent crimes. The police often lack transportation,
fuel, radios, ballistic vests, latex gloves, evidence bags, cameras, among other tools needed
to respond to incidents of sexual assault, and violent crimes, including death.

Currently, the Agency’s “Protocol: Violent Crimes Against Volunteers,” gives the OIG the
responsibility to “coordinate the interagency investigation of assaults, rapes, and other
violent crimes – as well as deaths – committed against Peace Corps Volunteers. This
includes, but is not limited to, primary coordination with the Department of Justice,
Federal Bureau of Investigation, Diplomatic Security Service, and other domestic law
enforcement and criminal investigative agencies….The Office of Inspector General will
serve as the principal office for guidance to Country Directors and other agency officials on
all related matters including, but not limited to retaining local counsel, as appropriate.”

The Agency should proceed with extreme caution to ensure continuity of Peace Corps
investigative support and effective response to violent crimes against Volunteers. Regardless
of which Peace Corps office responds to violent crimes, any transfer of function must not
limit or prohibit the OIG’s ability to investigate any and all crimes involving Peace Corps
and its resources. Peace Corps management should refrain from policy decisions that can
be construed as interfering with the objectivity and independence of the OIG.

              Investigation of Missing Funds at Peace Corps/Guatemala

In January 2008, we investigated a potential loss of funds from Peace Corps/Guatemala.
During a routine post audit, we identified a potential loss of Peace Corps funds due to the
mismanagement and a lack of effective internal control over the billings and collections
process. The OIG assigned an auditor and an investigator to respond to this incident.

We continue to research Peace Corps headquarters records in an effort to account for
refunds that may have been collected at headquarters level. The post has reported that they

      Peace Corps Office of Inspector General                                          
have taken actions to improve internal controls and accountability of Peace Corps
funds.

                           Online Collaboration Tools

We previously reported on our concerns over the Agency’s use of on-line
collaboration tools. Specifically, the OIG called management’s attention to
significant vulnerabilities that existed with respect to the lack of internal controls in
connection with two online collaboration tools, Peace-Wiki and Peace-Guru, which
Peace Corps intends to deploy.

Our concerns include:
•   Deployment of these collaboration tools before appropriate content controls are
    in place.

•   Possible duplication of a similar collaboration tools in various stages of
    development.
•   Inadequate cost analysis to determine the long-term financial impact of deploying
    such tools from initial investment and throughout the life of the program.

During this reporting period, Peace Corps management met with us to identify a
strategy to address our concerns. As a result of our meeting, the Agency will conduct
a limited pilot of these online tools. An outcome of the limited pilot will be to
clearly define and document content controls, reduce duplication of similar tools in
various stages of development, and the capability of the Peace Corps to support the
tools long-term.

We will continue to provide advice and assistance to the Agency as they move
forward with their plans to implement online collaboration tools to improve
Volunteer access to evolving technologies.

                       Accountability of Medical Supplies

OIG audits of overseas posts and audits by our external auditor during the last four
financial statement audits at the agency have identified a deficiency related to the
accountability of medical supplies at Peace Corps overseas posts.

Each Peace Corps post maintains a medical supplies inventory consisting of
pharmaceuticals, controlled substances, and associated items. The supplies are used
in providing medical care for over 8,000 Volunteers that are posted overseas in
countries served by the Peace Corps. During audit remediation meetings chaired
by Peace Corps management, we have provided expert advice on establishing more
effective internal control and improving accountability of medical supplies.



                  Semiannual Report to Congress    October 1, 2007 - March 31, 2008
Peace Corps management is currently revising guidance, developing a standard
system for maintaining inventory records, and establishing new procedures for
conducting periodic inventories of medical supplies.




     Peace Corps Office of Inspector General                                    
Audits and Program Evaluations

                                          Overview
 The Peace Corps’ OIG focuses principally on the programs, financial and
 administrative operations, and staff support that sustain Peace Corps Volunteers
 serving around the world. We accomplish this through audits and evaluations of the
 Agency’s posts overseas and its functions in headquarters and domestic recruiting
 offices.

 Both individual staff members and multi-disciplined teams carry out these reviews.
 For some highly technical audits, we also contract with independent auditing firms
 and individual experts.

 Audits examine operations and financial transactions to ensure that good
 management practices are being followed and that resources are adequately protected
 in accordance with laws and regulations. Our audits are conducted in accordance
 with generally accepted government auditing standards issued by the Comptroller
 General of the United States.

 Most of our audits focus on the operations and management of Peace Corps’
 overseas posts, which include a review of financial and administrative practices and
 the safety and security of persons and property. We also conduct audits of specific
 headquarters and regional activities, as well as contract and follow-up audits, as
 needed. In addition, the Accountability of Tax Dollars Act provides the OIG
 with the responsibility for the annual audit of Peace Corps’ financial statements.
 Furthermore, the Federal Information Security Management Act specifies that the
 OIG annually review the information security program of the Agency, which has
 become a component of our annual audit function.

 Program evaluations review the operation and administration of a specific unit of
 the Peace Corps or may involve a limited review of a particular problem, issue, or
 function.

 Most evaluations are of overseas posts and provide management with a
 comprehensive assessment of how overseas programs are functioning. This includes
 a review of the Volunteers’ sites and assignments, their safety and security, the quality
 of their training, the quality of the support provided to them, and the adequacy
 of the post’s administrative infrastructure to manage the program. Evaluations
 have traditionally focused on the effectiveness, satisfaction, and well-being of the
 Volunteers, including their housing, health care, and safety. Evaluators interview


     10                Semiannual Report to Congress   October 1, 2007 - March 31, 2008
a representative sample of 20% or more of the Volunteers at their sites, and
interview appropriate Peace Corps staff and some of the Volunteers’ co-workers and
supervisors. In compliance with the President’s Council on Integrity and Efficiency
and the Executive Council on Integrity and Efficiency Standards, our evaluation
process and procedures standards were updated during this reporting period.

                        Summary of Audits and Evaluations

    President’s Council on Integrity and Efficiency: External Peer Review

The Audit Unit underwent an external peer review and received an unmodified
(clean) opinion for the three-year period ending September 30, 2007. The peer
review, conducted by a fellow member of the President’s Council on Integrity and
Efficiency, determined that the design of the Office of Inspector General’s quality
control system met the associated standards established by the Comptroller General
of the United States.

The Inspector General Act of 1978 requires that each Office of Inspector General
organization comply with generally accepted government auditing standards
(GAGAS) and implement and maintain an internal quality control system for
its audit work. The internal quality control system typically consists of the four
following characteristics:

•    Policies and procedures that establish internal guidance and audit requirements,
•    Supervisory review process,
•    A quality control process for each audit (such as independent referencing), and
•    A quality assurance program.

The 1988 amendment to the Inspector General Act of 1978 requires that each Office
of Inspector General undergo and external peer review to verify compliance with
GAGAS and applicable quality control standards. GAGAS requires external peer
reviews at least once every three years.

External peer reviews of Inspectors’ General organizations are conducted by
independent federal auditors assigned by the President’s Council on Integrity and
Efficiency and Executive Council on Integrity and Efficiency.

             Peace Corps Fiscal Year 2007 Financial Statement Audit

The OIG contracted with Urbach Kahn and Werlin LLP (UKW), an independent
certified public accounting firm to audit the financial statements as of September 30,
2007 and 2006, and for the years then ended. The contract required that the audit
be done in accordance with generally accepted government auditing standards; the
OMB’s Bulletin 07-04, Audit Requirements for Federal Financial Statements; and the


      Peace Corps Office of Inspector General                                    11
Government Accountability Office/President’s Council on Integrity and Efficiency
Financial Audit Manual. UKW’s audit report for FY 2007 included: (1) an opinion
on the financial statements, (2) a report on internal controls, and (3) a report on
compliance with laws and regulations.

In the audit of the Peace Corps, UKW found that the financial statements were
fairly presented, in all material respects, and in conformity with generally accepted
accounting principles for the year-ended September 30, 2007. They reported that
there were no material weaknesses related to internal controls. OMB Bulletin
07-04 defines a material weakness as a significant deficiency, or combination of
significant deficiencies, that results in a more than remote likelihood that a material
misstatement of the financial statements will not be prevented or detected. However,
UKW’s report on internal controls did identify some significant deficiencies:

•   Certain controls associated with property, plant, and equipment were inadequate
    and need to be improved.
•   Internal controls over the business processes relating to undelivered orders and
    accounts payable need to be enhanced.
•   The Office of Chief Financial Officer’s policy on accounting for host country
    contributions is not consistent with generally accepted accounting principles
    related to preparation of financial statements, presentation, and disclosure.
•   Certain weaknesses related to the Peace Corps’ information technology control
    environment require corrective actions.

OMB Bulletin 07-04 defines a significant deficiency as a deficiency in internal
control, or a combination of deficiencies, that adversely affects the entity’s ability
to initiate, authorize, record, process, or report financial data reliably in accordance
with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected. The term “significant deficiency”
replaces the term “reportable condition.” UKW found no reportable noncompliance
with laws and regulations it tested.

In connection with the audit contract, the Office of Inspector General reviewed
UKW’s report and related documentation and made inquiries of its representatives
regarding the audit. To fulfill our responsibilities under the Chief Financial Officers
Act for ensuring the quality of the audit work performed, OIG monitored UKW’s
audit of the Peace Corps’ Fiscal Year 2007 Financial Statements in accordance
with generally accepted auditing standards. Specifically, we reviewed UKW’s audit
approach and planning; evaluated the qualifications and independence of its auditors;
monitored the progress of the audit at key points; examined UKW’s working papers
related to audit planning, testing, and assessing internal control over the financial
reporting process; reviewed the audit reports to ensure compliance with generally
accepted government auditing standards; coordinated issuance of the audit reports;
and performed other procedures we deemed necessary.


    12              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
As required by OMB Circular A-136, Financial Reporting Requirements, this audit
report has been published within the Peace Corps Fiscal Year 2007 Performance
and Accountability Report. In addition, a separate letter describing internal control
weaknesses which do not meet the definition of a significant deficiency, was issued
directly to Peace Corps management.

            Federal Information Security Management Act Review

The Federal Information Security Management Act (FISMA) mandates that federal
agencies establish effective information security protections and a program to secure
its information systems from unauthorized access, use, disclosure, modification,
and other harmful impacts. These requirements must be met through adherence to
specific guidelines established by the National Institute of Standards and Technology
(NIST). FISMA also requires OIGs to review their Agency’s information security
programs annually. The Office of Management and Budget (OMB) is responsible for
reporting to Congress on the overall progress of the federal government in meeting
FISMA requirements. This is accomplished through a data collection tool that OMB
requires each agency to complete and provide to them annually. Both the agency and
their respective OIG are required to submit responses designed to measure progress
by October 1 of each year using the OMB data collection tool.

The OIG contracted with Urbach Kahn and Werlin LLP to perform the annual
review of the Peace Corps information security program and provide the OIG with
data associated with the OMB reporting requirements. The review concluded that
Peace Corps has made significant progress toward becoming fully compliant with
FISMA. Specifically, the Agency has developed a comprehensive system inventory
including Federal Information Processing Standards 199 system classifications.
Peace Corps Office of the Chief Information Officer also implemented Information
Technology Security Requirements based on NIST Special Publication 800-
53, Recommended Security Controls for Federal Information Systems; published a
Certification and Accreditation (C&A) process guide; implemented a C&A tool; and
began the process of preparing several systems for accreditation. Additionally, Peace
Corps issued one Authorization to Operate (ATO) and four Interim Authorizations
to Operate (IATO) for Peace Corps’ general support systems and major applications
during the year. Furthermore, Peace Corps has begun annual security awareness
training for all employees and contractors through the use of WebStart, an automated
training tool. However, Peace Corps still faces some important challenges to
refine its information security program. For example, although the Peace Corps’
financial reporting system, Odyssey, has received an ATO, and four other systems
have received an IATO, it is critical that all twelve systems become fully certified
and accredited to meet FISMA requirements. Also, contingency plans have not
been completed for five of the Peace Corps’ systems and the Agency was not in full
compliance with related applicable NIST requirements for two of its twelve systems.




     Peace Corps Office of Inspector General                                     13
                           PC/Eastern Caribbean: Audit

We conducted an audit of Peace Corps/Eastern Caribbean February 11 – March 2,
2007. The Peace Corps began its program in the Eastern Caribbean in 1961. At the
time of our visit, there were 122 Volunteers serving in six island states: St. Lucia, St.
Vincent and the Grenadines, St. Kitts and Nevis, Grenada, Dominica, and Antigua.
Peace Corps/Eastern Caribbean’s project areas included small business development,
information and communication technology, health education, community
development, and special education.

We found that the post’s financial and administrative operations were not functioning
effectively. The post was not complying with certain federal guidance and several
Peace Corps policies and procedures. Some of the more significant findings are
summarized below:

•   Imprest fund administrative procedures related to physical security of cash,
    accountability, reconciliations, and reporting of fund shortages were not being
    followed.
•   Maintenance of required records was inadequate and not in compliance with
    applicable Peace Corps guidance.
•   Records related to billings and collections were not maintained in accordance
    with applicable policies, some billings were not being made, and there was an
    incidence of improper collections.
•   Support for bills of collection related to host country contributions was
    insufficient, expenditures against the contributions did not meet Peace Corps
    requirements, and a tax exempt status associated with certain contributions may
    not comply with applicable local tax laws.
•   Monitoring of grants related to Small Project Assistance was inadequate and as a
    result some funds were inappropriately used.
•   Property inventory records were not accurate, complete, or current and
    segregation of duties surrounding maintaining inventory records and performing
    inventories was inadequate.
•   Policies and procedures related to the maintenance and review of post vehicle
    management records were not being followed.
•   Procurement policies and procedures were not being followed and associated files
    were incomplete and inadequate.
•   Government credit card purchases were not always being approved by an
    authorizing official prior to making such purchases.
•   Peace Corps requirements for maintaining time and attendance records on a daily
    basis was not being met.
•   Policies and procedures for regularly scanning computers for viruses, daily back-
    ups, and access were not being followed.
•   IT technical support at the post was inadequate and unreliable at outlying Peace
    Corps operations within the Eastern Caribbean.


    14              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
Management concurred with 73 of 76 recommendations and did not concur with
three recommendations. At the end of the reporting period, 38 recommendations
are closed and 38 remain open.

                                              PC/Fiji: Audit

We conducted an audit of Peace Corps/Fiji April 11 – May 4, 2007. The Peace
Corps began its program in Fiji in 1968. The Peace Corps discontinued the Fiji
program in 1998; however, it was re-established in 2003. At the time of our visit,
there were 49 Volunteers working in Fiji. Peace Corps/Fiji’s current project areas
include environmental resource management and community health.

We found that the post’s financial and administrative operations were generally
functioning effectively and complied with Peace Corps’ policies and procedures.
However, certain areas relating to operations at the post needed to be improved.
Some of the more significant findings are summarized below:

•   Confidential Volunteer medical information was inappropriately included on
    some non-medical administrative documents maintained by the post.
•   Applicable guidance on use of appropriated funds was not followed regarding
    participation in certain training programs.
•   Records related to billings and collections were not maintained in accordance
    with applicable policies and procedures.
•   Host country contributions were not accurately or consistently recorded.
•   Inventory of medical supplies was not complete, accurate, and performed on a
    regularly scheduled basis as required by Peace Corps policy.

Management concurred with 25 of 26 recommendations and did not concur with
one recommendation. At the end of the reporting period, 23 recommendations are
closed and three remain open.

                                       PC/Georgia: Audit

We conducted an audit of Peace Corps/Georgia September 14 – October 5,
2007. This was the post’s first audit since its opening in fiscal year 2001. Over
250 Volunteers have served in Georgia. At the time of our audit, Volunteers were
working in the areas of English education and business and social entrepreneurship.

The post has had six administrative officers and four country directors since its start-
up. At the time of the audit, the administrative officer had been at the post seven
months; the country director, approximately one year. We noted that the country
director and administrative officer had corrected a number of deficiencies which
occured prior to their arrivals at the post.



    Peace Corps Office of Inspector General                                       15
As enumerated below, we found that the post’s financial and administrative
operations still required improvement in several areas:

•    Billing and collection procedures and related internal controls were inappropriate
     and inadequate.
•	   Volunteer settling-in surveys were not conducted in fiscal year 2006.
•	   Host country contributions by the Georgian government were not reflected in
     the operating plan.
•	   Travel vouchers were not always submitted timely and some contained errors in
     preparation.
•	   The official time and attendance records contained discrepancies.
•	   The procurement files did not contain five-year security investigation updates for
     the staff members requiring them.
•	   The swearing-in cable contained the new Volunteers’ full social security numbers.

Management concurred with 11 of 15 recommendations and did not concur with
three recommendations, and partially concurred with one recommendation. At the
end of the reporting period, all 15 recommendations are closed.

                                PC/Kazakhstan: Audit

We conducted an audit of Peace Corps/Kazakhstan July 18 – August 3, 2007. The
Peace Corps arrived in Kazakhstan in 1993, soon after the country had declared its
independence from the Soviet Union. Over 800 Volunteers have since served in
Kazakhstan. At the time of our visit, Volunteers were working in two program areas:
English education and organizational and community assistance.

From October 1, 2005 through the time of our audit, six different individuals,
permanent and temporary duty, served as country director; three served as
programming and training officer; and four served as administrative officer. At the
time of the audit, the country director and the programming and training officer had
been at the post approximately five months; the administrative officer, approximately
one year.

Our audit found that, in general, Peace Corps/Kazakhstan’s financial and
administrative operations were functioning effectively and complied with Agency
policies and federal regulations. However, as summarized below, we noted a number
of areas which required improvement:

•	 Quarterly imprest fund verifications were not always performed by the country
   director.
•	 Volunteer settling-in allowance surveys were not conducted for fiscal years 2007
   and 2006, and a living allowance survey was not conducted for fiscal year 2006.
•	 The purchase card was, on several occasions, used inappropriately.
•	 Daily vehicle usage logs were not reviewed on a weekly basis.


     16              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
•	 Travel vouchers were not always submitted timely and some contained errors in
   preparation.
•	 Complete certificates of acceptance were not obtained for several of the post’s
   leases.
•	 Procurement files were incomplete: the results of regional security officer’s
   security clearance investigations were missing from some contractors’ files, and
   intelligence background information certifications were not on file.

Management concurred with 21 of 22 recommendations and did not concur with
one recommendation. At the end of the reporting period, 15 recommendations are
closed and seven remain open.

                                        PC/Peru: Audit

We conducted an audit of Peace Corps/Peru April 30 – May 25, 2007. The Peace
Corps began its program in Peru in 1962. The Peace Corps discontinued the
Peru program in 1975; however, it was re-established in 2001. At the time of our
visit, there were 132 Volunteers working in Peru. Peace Corps/Peru’s project areas
included small business development, community health, youth development, and
environmental education.

We found that the post’s financial and administrative operations were generally
functioning effectively and complied with Peace Corps’ policies and procedures.
However, certain areas relating to operations at the post needed to be improved.
Some of the more significant findings are summarized below:

•   The post’s imprest fund was out of balance and certain administrative procedures
    related to the physical security over cash were not being followed.
•   Required independent surveys to determine Volunteer allowance levels had not
    been performed.
•   Records related to billings and collections were not maintained in accordance
    with applicable policies and procedures and separation of duties over this process
    were inadequate.
•   Reconciliation of obligations and liquidations was not effective.
•   Inventory records related to property did not indicate where the property was
    kept, rendering them incomplete and insufficient for purposes of confirming the
    existence of assets.
•   Official procurement files were incomplete and not in accordance with Peace
    Corps policy.
•   Policies and procedures related to the maintenance and review of post vehicle
    management records were not followed.
•   Several staff members had not completed mandatory annual security awareness
    training and had not signed required user verification forms related to use of
    Peace Corps IT equipment.



     Peace Corps Office of Inspector General                                       17
•    Peace Corps requirements for preparing and reviewing certain time and
     attendance records were not met. 	

Management concurred with 23 of 24 recommendations and did not concur with
one recommendation. At the end of the reporting period, 20 recommendations are
closed and four remain open.

                           PC/Armenia: Follow-Up Audit

During the period September 6 – 12, 2007, we conducted a follow-up to our audit
carried out August 9 – 27, 2004. Management had concurred with all 12 audit
recommendations in our report. As the result of our follow-up audit, we verified
that appropriate action was taken on nine of the 12 audit recommendations,
and we determined that three recommendations required additional action.
Subsequent to our visit, the post took required action on two of the three reopened
recommendations.

The remaining reopened recommendation related to Volunteer settling-in and living
allowance surveys. We found that independent surveys were not used in conjunction
with Volunteer surveys to determine the adequacy of the settling-in allowance. We
also found that the independent living allowance surveys were performed only in the
capital, Yerevan, where no Volunteers were situated.

At the end of the reporting period, 11 recommendations are closed and one
recommendation remains open.

                             PC/China: Follow-Up Audit

During the period February 11 - 22, 2008, we conducted a follow-up to our audit
carried out March 7 – 26, 2006. Management had concurred with 18 of the 19
audit recommendations in our report. As the result of our follow-up audit, we
verified that appropriate action was taken on 15 of the 19 audit recommendations,
and we reopened four recommendations that required additional action. Subsequent
to our visit, the post took needed action on one of the four recommendations.

The three reopened recommendations related to the following areas:

•    Travel vouchers were not always submitted within five working days after
     completing travel, as required by Peace Corps policy.
•    Vehicle usage logs were not being properly reviewed, signed, and dated.
•    Authorization from the U.S. Disbursing Officer to allow a non-direct hire staff to
     function as the post’s cashier was not on file; the matter was being followed up by
     headquarters.




    18              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
At the end of the reporting period, 16 recommendations are closed and three
recommendations remain open.

                   Medical Clearance System: Program Evaluation

We conducted an evaluation of Peace Corps’ Medical Clearance System, which is
responsible for medically screening applicants to ensure that Peace Corps posts are
provided healthy Volunteers who can serve for 27 months without undue disruption.
The Medical Clearance System is one component of the Volunteer Delivery System, a
continuous cycle of Volunteer recruitment, screening, and placement.

The Medical Clearance System evaluation systematically analyzed a host of complex
issues from both the applicants’ and the Peace Corps staffs’ perspectives including
the screening review systems and procedures, the screening review timeframe,
medical screening guidelines, communicated guidance, transparency, interoffice
communication, customer service, staff training, and the reimbursement fee schedule.

The Office of Medical Services Screening unit, responsible for operating the Medical
Clearance System, reviewed 7,517 medical files and cleared 5,323 applicants in FY
2006. In fiscal year 2006, the average time from to process an application from
the date received until the applicant entered on duty was 335 days. On average,
applicants over the age of 50 years took 122 more days to process compared to
applicants under 50 years of age. The greatest time difference between applicants 50
years and older and those under 50 years of age occurred during the medical review;
older applicants took an average of two months longer to medically screen than
under 50 applicants.

Despite some improvements to the Medical Clearance System, the following areas
need additional improvement:

•   Staff in the Office of Medical Services and the Quality Improvement Unit
    have not been proactive in implementing quality and process improvements to
    the Medical Clearance System. Standard Operating Procedures for screening
    applicants do not exist and Standard Operating Procedures for the storage of
    confidential medical information were not enforced.
•   Screening data was generally unreliable and analysis techniques were not
    supportive of performance measurement and process improvement efforts.
•   Applicants were frustrated that Peace Corps did not provide them with an average
    timeframe or cost for completing the Medical Clearance System process. Poorly
    organized and unclear instructions confused some applicants and their health care
    providers. These conditions also increased the time to complete the clearance
    process for some applicants.




     Peace Corps Office of Inspector General                                    19
• The Peace Corps had identified but not implemented technological improvement
  to the Medical Clearance System that would improve transparency and
  accessibility.
• Many recommendations identified in previous reports to improve the Medical
  Clearance System have not been implemented.

Management concurred with 40 of 55 recommendations, partially concurred with
nine recommendations, and did not concur with six recommendations. At the end
of the reporting period, 32 recommendations are closed and 23 remain open.




  20              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
                             Investigations

                                                  Overview
                                                      
The Investigations Unit responds to allegations of administrative and criminal
wrongdoing, fraud, and violent crimes that are forwarded to the Office of Inspector
General through various means, including: OIG audits and evaluations, hotline
complaints, Volunteers, Trainees, staff, other federal entities and the general public. 
We also investigate ethics and conflicts of interest violations.  The Office of Inspector
General is charged by law with the conduct of criminal investigations.  Specifically,
the Inspector General is authorized by statute to develop policy for the conduct
of investigations, and to coordinate and supervise both domestic and overseas
investigations.  Investigators work with other offices within the Peace Corps and/
or with other agencies, including Immigration and Customs Enforcement (ICE),
the State Department’s Diplomatic Security Services (DSS), the Federal Bureau of
Investigation (FBI), and the Department of Justice public prosecutors, as appropriate. 

With over 8,000 Volunteers in more than 70 countries, incidents of crime against
them have become increasingly more commonplace.  Part of the Agency’s support to
Volunteers who become victims is a protocol under which country directors report
incidents of violent crimes to the OIG.  The OIG manages and coordinates the
Agency’s part of the investigative and prosecution process from the reported initial
incident to the closing of the case.  We coordinate the investigation of the crimes
with the country director, various headquarters offices (e.g., the Office of Medical
Services, Office of Safety and Security), DSS and the embassy’s Regional Security
Officer (RSO), and host country law enforcement.  In particular, OIG special agents
work with the RSO to locate and apprehend suspects and collect the best evidence
for local trial.  This might include preparation of witness statements, developing
photo spreads, or obtaining DNA analysis.  As needed, we accompany witnesses
back to the country where the crime occurred for lineups, depositions, and trial.  We
consult and coordinate with the Department of Justice’s Office of Foreign Litigation
and receive assistance from the FBI, including the forensic laboratory at Quantico
and the overseas legal attachés, the Armed Forces Institute of Pathology at the Walter
Reed Army Medical Center, and the Secret Service Forensic Services Division.  Our
role in coordinating investigations and assisting in the prosecution of violent crimes
against Peace Corps Volunteers requires a high volume of work but also gives us the
opportunity to help curb violence against Peace Corps Volunteers. 

To ensure our effectiveness in the area of violent crimes, the OIG operates a 24 hours
a day, seven days a week, duty officer system whereby country directors can make
direct and immediate contact with criminal investigators in this office to coordinate
responses to violent crimes against Volunteers and assist the victims of crime. 
Early intervention and coordinated support has enhanced the quality of overseas

        Peace Corps Office of Inspector General                                      21
investigations.  We may, in limited circumstances, also arrange for a local lawyer to be
hired to help a prosecutor make a case against the perpetrator of the crime.  The 2004
“Equal Access to Justice Act” and other Congressional enactments, as well as the
Attorney General’s guidance, provide a prescriptive framework for the OIG’s victim
advocacy responsibilities and authority.

                   Investigation of the Death of a Volunteer
In a Pacific island country, a Volunteer was killed in a sudden, unexpected, traumatic
manner. The community members stated that a tree had fallen on the Volunteer;
a host country national from a neighboring village also died in the same event. An
OIG special agent was dispatched to investigate the circumstances surrounding the
death. The OIG arranged for a charter helicopter to travel to the remote location,
and photographed, videotaped, processed, and collected evidence at the death scene.
There were no local police authorities available to conduct an investigation, no
telecommunication capability, no medical facilities, and very limited transportation
to the remote area where the Volunteer died.

The OIG learned that community members waited approximately three hours prior
to notifying the Peace Corps post of the Volunteer’s death. The body was removed
from the scene prior to Peace Corps’ staff arrival. The OIG recommended that an
autopsy be performed to establish cause of death, based on unresolved issues related
to the manner of death as described by community members. The OIG offered to
fly an Armed Forces Institute of Pathology (AFIP) forensic team to the host country
to perform the autopsy, or to have them travel to the Volunteer’s home of record
to perform the autopsy. Due to the Volunteer’s family wishes, an autopsy was not
performed, so the actual cause of death could not be established.

                  Investigation of the Death of a Volunteer

In a South American country, a Volunteer was killed by a booby-trap gun in a
rural, wooden area. The OIG Investigations Unit responded by sending a team to
country to investigate the circumstances. OIG special agents interviewed community
members, other Volunteers, and worked with the local police to examine the death
scene, collect evidence, and conduct follow-up interviews. OIG special agents
photographed and videotaped the scene, collected, reviewed, and analyzed cell
phone records, cameras, laptops, and journals that belonged to the Volunteer. With
host country approval, OIG special agents conducted additional interviews with
villagers, and coordinated with the local police to collect further evidence. The OIG
coordinated with AFIP to have a forensic team respond to country to assist with an
autopsy. The investigation is ongoing.




   22               Semiannual Report to Congress   October 1, 2007 - March 31, 2008
                            Missing Volunteer Investigation

In September 2007, the OIG organized a multi-agency team that included personnel
from the State Department, FBI, Bolivian officials, Rhode Island State Police, to
conduct a search for a missing Volunteer in a remote valley in Bolivia. The search
was conducted after a review of documents and follow-up interviews disclosed the
last known location of the missing Volunteer. In October 2007, several probable
bone fragments found by the search team were examined by AFIP forensic personnel
and were determined to be non-human. OIG special agents are still pursuing
historical records documents from the multiple agencies that have been involved in
the investigation of the missing Volunteer to identify outstanding issues.

     Investigation of an Assault and Alleged Volunteer Misconduct

In a West African country, a Volunteer notified the OIG that she was assaulted by
two intoxicated fellow Volunteers while all attended a Peace Corps Volunteer training
graduation ceremony. The complainant told the OIG that her teeth were fractured
as a result of the assault and she was subsequently provided with substandard medical
care, which ultimately resulted in her medical separation from the Peace Corps.

Two Volunteers admitted they were intoxicated at the graduation ceremony after
party and had given each other piggy back rides for the purpose of bumping into
fellow Volunteers. Their actions resulted in the complainant being knocked to the
ground and fracturing her teeth. Other Volunteers told the OIG they observed
Volunteers throwing chairs into the swimming pool and over the walls of the hotel,
and a Volunteer entering the pool without payment. The OIG brought these
matters to the attention of Peace Corps management and subsequently learned that
the Volunteers who committed these infractions resigned in lieu of administrative
separation.

The complainant also informed the OIG that two Peace Corps sub-offices were
regularly abused by members of the Volunteer community and had a “frat-like
atmosphere.” In addition, several Volunteers informed the OIG that a small group of
Volunteers had engaged in illegal drug use and excessive alcohol abuse. Of particular
concern, the OIG learned that one Volunteer made cannabis-laced brownies and
provided them to an unsuspecting Volunteer at the Peace Corps sub-office. That
Volunteer consequently fell ill and had to seek medical treatment. This particular
matter was referred to the U.S. Department of Justice, but declined for prosecution.

    Investigations of Federal Employees’ Compensation Act Recipients

The OIG Investigations Unit continues to monitor Federal Employees’
Compensation Act (FECA) claims. At present, the Peace Corps has approximately
1,300 open FECA claims and the agency spends roughly $11 million dollars for
former Volunteers and staff who were injured or became ill on the job or during their

     Peace Corps Office of Inspector General                                    23
service. Unlike other Federal entities, per section 10.730 Workers Compensation
Programs, “[a]ny injury sustained by a volunteer or volunteer leader while he or she is
located abroad shall be presumed to have been sustained in the performance of duty,
and any illness contracted during such time shall be presumed to be proximately
caused by the employment.” This also includes any pre-existing condition that may
have been aggravated by Peace Corps service. In addition, the Peace Corps’ five-year
rule and Volunteer special status under the FECA program limit the possibility that
these individuals will return to work.

During this reporting period, the OIG obtained the names of potentially deceased
FECA recipients; the Investigations Unit investigated 23 of these files. In addition,
we investigated liability suits filed by FECA claimants.

OMS identified $51,301 in overpayments; $174,181.25 in annual disability and
medical costs; for an actuarial savings of $2,948,034.20. The Investigations Unit
looks forward to coordinating upcoming visits with OMS to review claims at U.S.
Department of Labor’s Workers Compensation Offices and conduct follow-up
investigations during the next reporting period.

                    Violent Crimes Against Volunteers
Overseas posts are required to report immediately to the OIG and RSO any incident
of a specified list of violent crimes against Volunteers. Early notification and response
is critical to a successful investigation and prosecution, which may assist in a victim’s
recovery, serve as a protective deterrent, and remove violent persons from society.

Violent crimes that are to be reported to the OIG and RSO include:
•   Volunteer Death (under any circumstances)
•   Kidnapping
•   Rape and Attempted Rape
•   Major Sexual Assault
•   Robbery
•   Aggravated Assault
•   Major Physical Assault
•   Burglary with Volunteer/Trainee present (or attempted)
•   Death Threat
•   Intimidation/Stalking (also Domestic Violence)
Crimes are reported to the OIG through the telephone number 202-692-2911 or
the crime hotline at violentcrimehotline@peacecorps.gov, from which the Inspector
General and investigative personnel receive notification on a 24/7 basis to assure
prompt assistance and coordination in their investigation. For overseas crimes, the
OIG partners with the Criminal Investigative Liaison Branch (CIL) of the Bureau of

    24              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
Diplomatic Security to facilitate communications and support to the victim and to
the Peace Corps post. During this reporting period, approximately 265 preliminary
inquiries were opened, which resulted in the initiation of 15 investigations.

We have also established a dedicated law enforcement liaison line (911@peacecorps.
gov) for other federal and foreign law enforcement agencies to access OIG
investigative personnel on a 24/7 basis. This resource for coordination among law
enforcement agencies may be the first of its kind.
We have three special agents whose primary responsibility is to oversee the cases
in one of the Agency’s three geographic overseas regions: Africa; Inter-America
and Pacific; and Europe, Mediterranean, and Asia. This pairing allows them to
develop closer coordination with overseas counterparts and better understand the
characteristics of each country and its criminal justice system. A fourth special agent
prinicipally oversees the Agency’s FECA initiatives.

              Closed Cases Of Violent Crime Against Volunteers

•   The OIG previously reported a brutal rape and assault in an Eastern European
    country against a Volunteer by three host county national males. All three
    defendants were convicted; however, the U.S. Embassy and OIG instructed the
    host country attorney retained by the OIG to appeal the sentences for being too
    lenient. The government reevaluated the sentencing and determined that the
    elements of the rape had not been properly evaluated by the lower court. The
    upper court subsequently sentenced two suspects to nine years imprisonment
    (originally six year sentences) and the third defendant to six years imprisonment
    (originally probation).

•   An OIG special agent escorted a Volunteer back to a South American country
    for a legal proceeding and to revisit to the crime scene. The Volunteer related the
    events of the night she was raped in front of the judge and the defense team. The
    case was elevated to the supreme court to render a verdict and sentencing for the
    suspect. The suspect was found guilty and sentenced to eight years in prison.

•   An OIG special agent coordinated with the post in a West African country to
    retain counsel to represent a Volunteer for a sexual assault trial. The OIG special
    agent traveled to the post and accompanied the Volunteer, attorney, and other
    staff to the trial site. The suspect was found guilty and sentenced to three years
    probation and a fine.

•   Two OIG special agents accompanied a former Volunteer back to the Pacific
    region for a rape trial. This was the first DNA case tried in the local legal system.
    The OIG supported the investigation by: providing guidance and direction to
    the country director, the Peace Corps Medical Officer, and the local forensic
    doctor regarding the collection and preservation of biological evidence; through
    coordination with the U.S. Embassy regional security office; and through
    direct support and victim advocacy for the Volunteer. An OIG special agent

     Peace Corps Office of Inspector General                                        25
    met with the local police regarding the investigation. While in country, the
    OIG special agent collected additional evidence at the crime scene and received
    biological evidence from a suspect held in police custody. The OIG special agent
    transported the biological evidence collected from the crime scene to the U.S. for
    analysis by the FBI laboratory. The DNA evidence proved conclusively that the
    suspect in custody is the perpetrator of the crime. This confirmation provided
    the impetus for the host country to collect and transmit its own forensic evidence
    to a New Zealand laboratory. The OIG coordinated with the host country
    prosecutor, and assisted the former Volunteer with trial preparation, logistics, and
    security to promote a favorable outcome. The suspect was found guilty on five
    charges of rape and one charge of kidnapping. Sentencing in the case is set for
    May 2008.

•   During this reporting period, a Volunteer was raped in a Caribbean country. The
    OIG coordinated with the Regional Security Officer and the post to provide
    victim advocacy resources and information to the Volunteer. The Volunteer was
    medically evacuated to Washington, DC where she met with OIG special agents
    on several occassions. The Volunteer decided not to prosecute and returned to
    the country to complete her service.

•   In a prior reporting period, the OIG reported that a Volunteer was stabbed
    multiple times in an East Asian country. Through immediate intervention and
    emergency surgery the Volunteer survived. Host country police continue their
    investigation. One subject has been apprehended and remains in custody, while a
    second subject is still at large. During this reporting period, the OIG continued
    to coordinate with the U.S. Embassy and the post to promote justice in this
    crime and ensure that the jailed subject is tried for the attack.

•   In an African country, a Volunteer was raped by an acquaintance at a hostel.
    The Volunteer filed a police report and made a formal statement with the public
    prosecutor. Witnesses were interviewed and some of their statements conflicted
    with the victim’s statement. The public prosecutor’s office did not believe that
    the case was viable for prosecution, but asked the victim to decide if she wanted
    to pursue charges. After careful consideration and consultations with the OIG
    regarding the evidence and conflicting witness statements, the Volunteer chose to
    withdraw formal charges against the subject.

•   A West African post notified the OIG that a Volunteer received a death threat
    from his landlord for allegedly engaging in sexual contact with a 13-year-old host
    country national. An OIG agent was dispatched to the post to investigate the
    allegations. The OIG special agent collected sworn statements from witnesses,
    the host country minor, and the Volunteer. The Regional Security Officer and
    the OIG agent interviewed the Volunteer, who denied the charges. The OIG
    special agent retrieved evidence, including physical evidence from the Volunteer’s
    home and DNA samples. The OIG also seized the Volunteer’s external computer
    hard drive and imaged the Volunteer’s laptop computer. The analysis of the

    26              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
    imaged and seized hard drives revealed no evidence of child pornography or other
    illegal activity.

                   Active Investigations of Violent Crime Cases

•   In a prior reporting period, the OIG reported on the murder of a Volunteer in
    a Southern Asian country. A suspect was apprehended and remains in custody.
    During this period, the OIG special agent worked with the local attorney
    to support trial efforts, which included sifting through collected evidence,
    photographs, reports, and witness statements. The OIG special agent aided in
    the search for local witnesses to appear in court, and organized the travel of a
    U.S. citizen witness who was with the Volunteer the day that she disappeared.
    The OIG special agent testified in court about the OIG’s role in the consensus-
    based search model effort used to locate the victim, the body recovery, and the
    on-scene identification of the Volunteer. Per the family’s request, the OIG has
    updated the family members on the case and trial, and responded to questions
    asked about recovery efforts, manner of death, and post-mortem findings. The
    trial is ongoing.

•   A Volunteer serving in Asia was raped by a host country national male in
    the foyer of an apartment building. The police subsequently retrieved text
    messages sent by the subject immediately following the incident in which
    he apologized and asked for forgiveness. The suspect admitted to the attack
    during police questioning. Local authorities are not aggressively pursuing the
    rape investigation, in part because the victim only had minor injuries, and the
    suspect recanted his confession and claimed the encounter was consensual.
    The OIG retained an attorney experienced in sex crime issues to work with
    the local prosecutor’s office to maximize chances of conviction. The attorney
    recently advised the OIG that the host country prosecutor wants to dismiss the
    charges. The OIG is coordinating with the U.S. Embassy to request that the host
    government make a fair and unbiased assessment of the facts before dismissing
    the case.

•   A Volunteer serving in the Caribbean reported that she had been raped during
    an electrical blackout. The Volunteer was en route to her home on a motorcycle
    taxi when the driver pulled up to a house to allegedly talk to a friend. The
    driver invited the Volunteer to come inside the house, where she was accosted by
    another subject and raped. The OIG aided the Volunteer in obtaining financial
    assistance to help with medical repercussions associated with the rape. The
    OIG also collected evidence to aid in the identification of the perpetrator. The
    investigation is ongoing.

•   An OIG special agent accompanied a former Volunteer back to a Caribbean
    country for the trial of an aggravated assault. The OIG also coordinated logistics
    for a U.S. Embassy FSNI in Barbados to assist in this matter. The Volunteer had
    been stabbed twice and was medically separated from Peace Corps as a result of


     Peace Corps Office of Inspector General                                      27
     his injuries. The trial was heard at the Magistrate’s Court, and a police prosecutor
     was assigned to the case. However, the prosecutor was ill-prepared and
     conducted no trial preparation with the Volunteer. The defendant had a private
     attorney. Ultimately, the police prosecutor withdrew the charges against the
     defendant. In response, the OIG special agent and FSNI met with the Deputy
     Police Commissioner, and followed up with the post and the U.S. Embassy to
     draft a letter to the Police Commissioner. The Volunteer is prepared to return for
     future hearings in this matter.

•    In a Caribbean country, a Volunteer was the victim of an attempted rape. The
     police identified and apprehended a suspect. An OIG special agent assisted the
     post in hiring a lawyer to represent the Volunteer. At the preliminary hearing,
     the judge presiding over the case decided there was enough evidence for the case
     to go to trial, which has been scheduled for April 2008.

•    In a West African country, a Volunteer was raped. An OIG special agent
     contacted the Volunteer to explain prosecution options. The Volunteer chose
     to press charges and will return to the country for trial. The OIG special agent
     coordinated with the post to retain counsel to represent the Volunteer. The case
     is awaiting trial.
•    As was previously reported, a Volunteer was raped at another Volunteer’s home
     by an acquaintance in a South American country. The defendant stated that
     he had no physical contact with the Volunteer in his official statement to the
     local police. The OIG special agent had met with the Deputy Attorney General
     who commented that if the defendant’s DNA was found on or in any of the
     evidence collected, a prosecution could be pursued. In July 2007, the OIG
     special agent returned to the post and subsequently transported a second set of
     biological samples to the FBI laboratory for DNA analysis. In March 2008, the
     FBI indicated that the defendant’s DNA was found in the evidence. This case is
     ongoing.

•    In a Central American country, a Volunteer was robbed and a U.S. citizen
     friend was gang raped. An OIG special agent coordinated with the local police,
     prosecutors, and forensic analysts. Three suspects were captured and their DNA
     was collected for comparison with evidence collected from the victim. Because
     the country does not yet have DNA analysis capabilities, the OIG special agent
     took custody of the DNA evidence and brought it to the FBI lab in Quantico,
     Virginia. Results of the analysis are pending.

•    A female Volunteer serving in Central Asia reported she had had been raped and
     robbed by multiple host country males over the course of two nights. When the
     Volunteer notified the police of this matter, the investigating officials informed
     the local Peace Corps office and the embassy that the Volunteer could potentially
     be charged for criminal conduct, because she had allowed 15 to17 year old
     males into her home and allegedly provided them alcohol. The Volunteer was


    28              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
    subsequently allowed to return to the United States for medical treatment. The
    case has been forwarded to the local prosecutor’s office where charges against the
    five host country nationals are under consideration.

      Title 18 Criminal and Other Investigations Conducted
•   During this reporting period, the OIG investigated allegations that the agency
    had allowed visitors into the Peace Corps headquarters facility who lacked
    government-issued identification, which is a violation of Peace Corps’ policy.
    The investigation determined that on several occasions, visitors arrived at the
    Peace Corps facility without valid government-issued identification. However,
    the visitors were verbally cleared by security management to pass through
    the checkpoint after security screenings and were deemed by same to pose no
    apparent risk. As a result of the OIG investigation, Peace Corps amended its
    policy to allow security management limited, case-by-case discretion to allow
    visitors without valid government-issued identification to enter the Peace Corps
    facility. However, the OIG notes that this policy change does not address
    the need that such discretion must be formally documented in writing for
    accountability of all visitors that enter the Peace Corps facility.

•   The OIG was notified that a Peace Corps employee from an African country
    had been apprehended for smuggling two kilograms of heroin into the United
    States. An OIG special agent is assisting the Department of Homeland Security
    with the investigation into the circumstances surrounding the illegal possession,
    transportation, and importation of heroin by the employee. The employee was
    on official annual leave when she was stopped and arrested at JFK International
    Airport. The OIG investigation is ongoing and we will determine whether any of
    the criminal activity involved Peace Corps resources or official cover.

•   In April 2007, the Government Accountability Office issued a report on the
    fraud and abuse of the federal transit benefits program by federal workers. This
    report prompted the Peace Corps OIG to examine its employees who receive
    metro benefits for fraud and abuse of the Agency’s transit benefits program.
    The OIG has gathered information regarding the Agency’s employees who are
    receiving benefits and our investigation is ongoing.

•   The OIG was notified that several attempts to withdraw cash using a credit card
    belonging to a Volunteer serving in East Africa were made in a European country.
    An OIG special agent contacted the Volunteer’s parents and local banking
    institution to provide the host country police with details of the attempted
    transactions. The Volunteer has since been issued a new credit card. The host
    country police concluded their investigation due to insufficient evidence.

•   The OIG received a number of ethics allegations regarding a particular staff
    person in a Central American country. From August 2007 through January



     Peace Corps Office of Inspector General                                       29
     2008, the OIG coordinated with the RSO to conduct an investigation and
     determined that the allegations were unfounded.

•    Two OIG special agents traveled to a South American country to interview staff
     members and Volunteers regarding thefts from Volunteers’ lockers that occurred
     at the Peace Corps office. The investigation was inconclusive due to the amount
     of people who had access to the area and the amount of time from when the
     thefts occurred to when it was reported to the OIG. It was recommended by the
     RSO that new, more secured lockers be ordered.




    30              Semiannual Report to Congress   October 1, 2007 - March 31, 2008
TABLE 1: List of Reports : Audits, Evaluations, and Inspections




 Peace Corps/Eastern Caribbean                              Audit
 Peace Corps/Fiji                                           Audit
 Peace Corps/Georgia                                        Audit
 Peace Corps/Kazakhstan                                     Audit
 Peace Corps/Peru                                           Audit
 Peace Corps/Armenia                              Follow-up Audit
 Peace Corps/China                                Follow-up Audit
 Medical Clearance System                      Program Evaluation




     Peace Corps Office of Inspector General                31
          TABLE 2: Reports Issued with Questioned Costs or
                      Funds Put to Better Use


                                                                      Value                   Note

Audit of
Peace Corps/Eastern Caribbean 		 $	                                  31,591.80            	    1

Audit of Peace Corps/Peru	                                      $	    5,933.83		 2

Total of Reports Issued with Costs   	
Questioned or Funds Put to Better Use			$	 37,525.63


Note:
1.   Cashier advances.
2.   Imprest fund and unliquidated obligations.




     32                Semiannual Report to Congress   October 1, 2007 - March 31, 2008
                 TABLE 3: Status of Reports Issued by
                    OIG with Costs Questioned




                                                       Number of        Value
                                                     		Reports

A. Reports issued prior to this period
     For which no management decision had been	
     made on any issue	                                  0
     For which some decisions had been made
     on some issues	                                     0

B. Reports issued during the period	                     1        	   $6,743.21

Total of Categories A and B	                             1    	       $6,743.21

C.	For which final management decisions were made	
	 during this period	                                    1    	       $6,743.21

D.	For which no management decisions were made
	 during the period	                                     0

E.	 For which management decisions were made
    on some issues during the period	                    0	

TOTAL OF CATEGORIES C, D, and E	                         1    	       $6,743.21




  Peace Corps Office of Inspector General                             33
               TABLE 4: Status of Reports Issued by
                OIG with Funds Put to Better Use



                                                         	
                                                                   Number of           Value
                                                                   Reports

A. Reports issued prior to this period	
     For which no management decision had been
     made on any issue	                                                   0
     For which some decisions had been made
     on some issues		0                                                                   0

B. Reports issued during the period	                                      2 		 $30,782.42

Total of Categories A and B	                                              2		 $30,782.42

C. For which final management decisions were made
  	during this period 	                                                   2	        $30,782.42

D.	For which no management decisions were made
 	 during the period	                                                     0              0

E. For which management decisions were made
   on some issues during the period	                                     0               0

TOTAL OF CATEGORIES C, D, and E	                                          2	        $30,782.42




34               Semiannual Report to Congress   October 1, 2007 - March 31, 2008
        TABLE 5: Reports with Recommendations on which Corrective
                      Action has not been Completed


                            Recommendations open 60 days or more
Report                                         				Date Issued                                               Number of Open
                                              											                                                    Recommendations

PC/Eastern Caribbean: Audit					12/20/2007	                                                                           38
PC/Fiji: Audit	                             1/10/2008	                                                                 3
Federal Information Security Management Act 	1/15/2008 	                                                               5
                           Recommendations open 120 days or more
Report                                                     	                               Date Issued 	 Number of Open
                                                                                                         Recommendations

PC/Armenia: Audit                                          	                               10/24/2007	                 1
PC/Kazakhstan: Audit	                                                                      10/30/2007	                 7
FY 07 Agency Financial Statements: Audit	                                                  11/13/2007 	               11

                           Recommendations open 180 days or more
Report                                            	                                        Date Issued 	 Number of Open
                                                                               	                         	Recommendations

FY 04 Agency Financial Statements: Audit                                           	       11/15/2004         	        2
Audit of the Safeguarding of Social Security Numbers                   	                     3/4/2004             	    1
FY 05 Agency Financial Statements: Audit                                   	               11/15/2005             	    3
Travel Policies and Procedures: Audit                              	                        6/27/2006           	      5
PC/Cameroon: Evaluation                                        	                           10/23/2006     	           15
PC/China: Audit                                                        	                    3/30/2007           	      1
PC/Panama: Audit                 	                                                          6/22/2007           	     4
PC/Eastern Caribbean: Evaluation                   	                                        6/25/2007   	              9
PC/Cameron: Audit	                                                                          8/31/2007 	               2
PC/Senegal:Audit                                                                       	    9/25/2007       	         6




                 Peace Corps Office of Inspector General                                                              35
               TABLE 6: Summary of Investigative Activity



Cases                                                                    NUMBER
Cases opened as of 10/1/2007                                                    	74
Cases opened during 10/1/2007 - 3/31/2008                                      	17
Cases closed that were previously opened                            	           39
Cases opened and closed during 10/1/2007 - 3/31/2008                 	            0
Total open cases as of 3/31/2008                                    	           60
Referrals for Department of Justice Prosecution                                  	5
Referrals for Agency Administration Action                               	        1

Domestic Court Actions                                                   NUMBER
Trial(s) Pending                           	                                    0
Convictions                            	                                        0
Acquittals 	                                                                    0
Judgments 	                                                                     0
Fines/Restitutions 	                                                            0

Overseas Court Actions                                                   NUMBER               	

Trial(s) Pending         		                                                     6
Convictions 	                                                                   5
Acquittals 	                                                                    0
Judgments                	                                                      0
Fines/Restitutions                 	                                            0

Monetary Results                                                         NUMBER
Annual Savings      	                                                           0
Recoveries/Restitution                         	                                0
Cost Avoidance                 	                                                0

ADMINIstrative Actions                                                       NUMBER

Employees (Resignations and Terminations)              	                        7
Other Employee Actions          	                                               0
Other Persons/Businesses     	                                                  0




   36                  Semiannual Report to Congress       October 1, 2007 - March 31, 2008
 TABLE 7: Summary of Hotline and Other Complaints




Complaints Received                               13
Complaints Closed                                 14
Awaiting OIG Action                                1
Resulted in Investigations                         1
Resulted in Audits                                 0
Resulted in Evaluations                            0
Referred to Agency Management                      0
Referred to Other Agency                           0
No Action Needed                                  11




  Peace Corps Office of Inspector General    37
   TABLE 8: References to Reporting Requirements of
              the Inspector General Act


The Inspector General Act of 1978, as amended, specifies reporting requirements for
Semiannual Reports to Congress. The requirements are listed below and indexed to the
applicable page.

Act Reference Reporting Requirements                                                    Page

Section 4(a)(2)    Review of legislation and regulations                               None
Section 5(a)(1)    Significant problems, abuses, and deficiencies                      6 – 20
Section 5(a)(2)    Significant recommendations for corrective actions                  6 – 20
Section 5(a)(3)    Prior significant recommendations on which corrective action
                   has not been completed                                                35
Section 5(a)(4)    Matters referred to prosecuting authorities                         29 – 30
Section 5(a)(5)    Summary of instances where information was refused                   None
Section 5(a)(6)    List of audit reports, including evaluations, inspections, and
                   reviews                                                               31
Section 5(a)(7)    Summary of significant reports                                      10 – 20
Section 5(a)(8)    Statistical table - questioned costs                                  33
Section 5(a)(9)    Statistical table - funds put to better use                           34
Section 5(a)(10)   Summary of previous audit reports without management
                   decisions                                                           None
Section 5(a)(11)   Significant revised management decisions                            None
Section 5(a)(12)   Significant management decisions with which the Inspector
                   General disagrees                                                   None
Section 5(a)(13)   Information under Federal Financial Management
                   Improvement Act of 1996                                             None




  38                Semiannual Report to Congress   October 1, 2007 - March 31, 2008
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or
write the Office of Inspector General.

Call:
Main Office                       (202) 692-2900
Hotline                           (800) 233-5874
Violent Crime Notifications       (202) 692-2911

Write:
Peace Corps
Attn: Inspector General
1111 - 20th St., N.W.
Washington, DC 20526

Or

Peace Corps
Attn: Inspector General
P.O. Box 57129
Washington, DC 20037-7129

Email:
Hotline:                               OIG@peacecorps.gov
Violent Crime Notifications:           violentcrimehotline@peacecorps.gov




     Information received is held in confidence to the maximum feasible extent.
Peace Corps
Office of Inspector General
Paul D. Coverdell Peace Corps Headquarters
1111 - 20th St., NW
Washington, DC 20526
